<html>
<title> - MANAGEMENT OF THE DIGITAL TV TRANSITION: IS NEW YORK CITY PREPARED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  MANAGEMENT OF THE DIGITAL TV TRANSITION: IS NEW YORK CITY PREPARED?

=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2008

                               __________

                           Serial No. 110-139

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
48-241 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2008....................................     1
Statement of:
    Baker, Meredith Attwell, Acting Assistant Secretary, 
      Communications and Information, National Telecommunications 
      and Information Administration, U.S. Department of Commerce    70
    Desai, Monica Shah, Chief, Media Bureau, Federal 
      Communications Commission..................................    89
    Lloyd, Mark, vice president, Strategic Initiatives, 
      Leadership Conference on Civil Rights and Leadership 
      Conference on Civil Rights Education Fund..................    14
    Ritter, Bill, co-anchor, Eyewitness News, WABC-TV, New York, 
      NY.........................................................     6
Letters, statements, etc., submitted for the record by:
    Baker, Meredith Attwell, Acting Assistant Secretary, 
      Communications and Information, National Telecommunications 
      and Information Administration, U.S. Department of 
      Commerce, prepared statement of............................    73
    Desai, Monica Shah, Chief, Media Bureau, Federal 
      Communications Commission, prepared statement of...........    92
    Lloyd, Mark, vice president, Strategic Initiatives, 
      Leadership Conference on Civil Rights and Leadership 
      Conference on Civil Rights Education Fund:
        Information concerning transition........................    30
        Prepared statement of....................................    17
    Ritter, Bill, co-anchor, Eyewitness News, WABC-TV, New York, 
      NY, prepared statement of..................................    10
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     3


  MANAGEMENT OF THE DIGITAL TV TRANSITION: IS NEW YORK CITY PREPARED?

                              ----------                              


                         FRIDAY, JULY 18, 2008

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to notice, at 10:55 a.m., at 
Brooklyn Sports Club, the Club Room, 1540 Van Siclen Avenue, 
Brooklyn, NY, Hon. Edolphus Towns (chairman of the 
subcommittee) presiding.
    Present: Representative Towns.
    Also present: Representative Clarke.
    Staff present: Michael McCarthy, staff director; Lars 
Hydle, legislative director; William Jusino, professional staff 
member; and Kwane Drabo, clerk.
    Mr. Towns. I ask unanimous consent that Members of the New 
York City Congressional Delegation be allowed to participate in 
the hearing.
    And, without objection, so moved.
    Welcome to today's oversight hearing on the Digital 
Television Transition. On February 17, 2009, broadcasters will 
stop airing their signals in the current analog format. Without 
proper preparation, millions of New Yorkers may turn on their 
TVs on February 18, 2009, only to find themselves left in the 
dark, without access to critical weather updates, emergency 
alerts, news or entertainment programming.
    The switch will require new equipment and services for many 
people currently using antennas to receive over-the-air 
broadcasts. There are already major efforts under way to 
educate the public about this transition.
    The broadcasting industry has launched a national consumer 
education campaign valued at more than $1 billion. And, I 
salute them for their efforts. Today, we will hear specifically 
about how WABC-TV has educated its viewers here in New York 
City about the transition.
    The government has also been working to educate consumers 
about the transition date and the availability of free Federal 
vouchers to help citizens purchase new equipment. Today's 
hearing will evaluate how wisely that money is being spent.
    Some are concerned that vulnerable populations such as 
seniors, low-income Americans, or non-English speaking viewers 
are unaware of the steps they need to take. These groups are 
known to heavily rely on their over-the-air broadcasts and 
would be most hurt by failing to prepare for the transition.
    In addition, these groups are large blocks of New York 
City's population. So, I look forward to hearing how the 
education effort can be targeted as the programs move along.
    And, let me pause here to say that this is not a beat-up 
session. You know, I've been a part of some of those, but this 
is not a beat-up session. This is a session to have dialog, to 
see what we can do together, to make certain that people are 
aware of the transition that is going to take place on February 
19th. And then, if we talk to each other, and if there is 
enough dialog, then I think that we can make a smooth 
transition. But, if we do not talk to each other, and there is 
not dialog, then I think we're going to have a mess on February 
19th.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.001
    
    [GRAPHIC] [TIFF OMITTED] 48241.002
    
    Mr. Towns. So, at this time, I would like to yield to my 
colleague, a person that I have worked very closely with down 
through the years, for her opening statement, Yvette Clarke, 
who also represents a District in Brooklyn.
    Yvette.
    Ms. Clarke. I want to first of all thank you, Chairman 
Towns, for permitting me to share in this extremely important 
issue for our Districts here in Brooklyn, and its significance 
and relevance to our city, our State, and our Nation.
    The city of New York is oftentimes seen as the Mecca for 
communications. Here, we transmit news around the world. And, 
the transmission of information and communication has been what 
has been the primary mover in making our world a smaller place, 
in making sure that we can inform citizenry of important issues 
and concerns, as well as the entertainment that we've enjoyed 
for generations now. We are moving, Mr. Chairman, into a new 
era, an era where communication comes to us much faster, much 
deeper, and much more quicker than ever before.
    This hearing today is important for the people of Brooklyn, 
the people of the city of New York, and certainly the people of 
this Nation. On February 19th, we open the doorway to that new 
era, and we want to make sure that every citizen is informed, 
and has an opportunity to participate in the program that the 
Nation has set aside, the Federal Government, in terms of 
vouchers and making this transition, and that it can be done in 
as smooth and organized fashion as possible.
    The word must get out. The word has to get out. So many of 
us rely on this media for our ability to communicate with one 
another in a very timely fashion. And so, Mr. Chairman, you're 
to be commended for setting aside the time here in New York 
with people of the community, with the stakeholders who will 
make this transition happen, and begin that process in a very 
bold and orderly fashion.
    I hope today we will hear from our witnesses how they feel 
this will impact the lives of our citizenry, and what is in 
place, currently, to make this transition a smooth one, and 
what more needs to be done, quite frankly, to make sure that 
everyone in this Nation can be prepared for the upcoming 
tansition, whether they live in a densely populated area like 
our Districts in Brooklyn and in the city of New York, or 
whether they live upState in areas much more remote where 
oftentimes communication can be a bit slower.
    I want to thank you, once again, Mr. Chairman, for inviting 
me to participate. Together, our Districts make up the bulk of 
Brooklyn, and we will be sure that the 11th and 10th 
Congressional Districts are informed and a part of this change.
    Thank you, sir.
    Mr. Towns. Thank you very much.
    Ms. Clarke. I yield back.
    Mr. Towns. Thank you very much. And, I appreciate your 
statement.
    And, of course, you're right. We have to make certain that 
in our Districts, at least, the word gets out, and hope that 
others will help us spread the word.
    It's a longstanding tradition that in this committee that 
we swear in our witnesses. So, if you would please stand and 
raise your right hands?
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that they answered in the 
affirmative.
    You may be seated.
    We have with us today Mr. Bill Ritter. He's the Emmy-Award 
winning anchor of the 6 p.m. and 11 p.m. Newscasts at WABC-TV 
here in New York. And, we're proud to have him here today.
    He has several years of experience in broadcasting. And, of 
course we welcome you here today. And, at this time, we'd like 
to pause and allow you to give an opening statement. And then, 
of course, allow us enough time to be able to raise questions 
with you.
    Mr. Ritter. Of course.
    Mr. Towns. Thank you. Mr. Ritter.

STATEMENT OF BILL RITTER, CO-ANCHOR, EYEWITNESS NEWS, WABC-TV, 
                          NEW YORK, NY

    Mr. Ritter. Thank you, Chairman Towns, Congresswoman 
Clarke, members of the panel, and all the visitors and guests 
who have come here and live in Brooklyn, to support the 
hearing.
    My name is Bill Ritter. I work at Channel 7, WABC 
Eyewitness News, where I co-anchor the 6 and 11. I am also a 
correspondent for the ABC News program magazine, 20/20. That is 
also produced here in New York City. So, I have a national and 
local perspective on this.
    I want to thank you, first, for holding this important 
hearing. It's timely, as we begin now the 7-month countdown to 
the transition to digital television and digital broadcasting.
    There in this country right now about 69 million analog 
television sets still in use. They will stop working after 
February 17th of next year, unless consumers do one of three 
things: Connect their analog set to a digital converter box; 
subscribe to cable, satellite, or get a telephone service 
provider to do that; or, purchase a new television set with an 
integrated digital tuner.
    Those affected the most by this digital television 
transition, which we call DTV, are, as you said, Mr. Chairman, 
the elderly, the economically disadvantaged, the various 
minority populations, and those living in rural areas.
    Many people behind me and you all, I know, I saw you 
looking at the television sets we brought. And, I'll just 
direct your attention over there. The two television sets there 
are both analog television sets. The one on the right is the 
more traditional over-the-air signal, with rabbit ears. The one 
on the left is a crystal clear enhanced picture using this 
converter box, that we've been talking about, that the 
Government is passing out coupons, giving people a big discount 
on the price of the converter box. The difference is 
substantial, as you can see. One is a typical fuzzy picture, 
and the other is crystal clear, an enhanced picture. Both are 
analog televisions.
    Broadcasters are, in fact, leading the way to educate 
consumers about DTV. We are fully committed to ensuring that no 
viewer is left behind, if you'll pardon that phrase, and no 
viewer loses access to free television after the switch in 
programming.
    Broadcasters across the country--you mentioned $1 billion. 
We've also spent more than $5 billion upgrading equipment. And 
we have committed, as you say, another billion dollars to 
providing educational information about DTV.
    Local television stations across the country, including 
WABC, are now using digital television technology to provide 
these crystal clear pictures and sound, as well as new 
multicast program services. As a member of the DTV Transition 
Coalition steering committee--that's the industry and 
government coalition made up of about 240 groups and 
organizations--WABC Channel 7 television is fully engaged in 
educating New Yorkers about the transition and about the 
options available to them, to successfully make this switch by 
February of next year.
    We're also actively participating in the National 
Association of Broadcasters--that's the NAB--the NAB's DTV 
consumer education plan that was adopted by the FCC on March 
3rd. And, as part of this plan, we have committed to a 
comprehensive program of DTV public service announcements, air 
time, community events, and other on-air features. The campaign 
is based on quarterly DTV Public Service Announcements [PSAs], 
airing of a 30-minute educational program. We also air 
informational messages through what we call crawls, and snipes, 
and news tickers. Those are--you know, the crawls and snipes, 
you know, what pop up on the bottom of your television screen. 
And, other TV features, such as countdown activities beginning 
100 days from the transition date, and we'll talk about that in 
a couple of minutes.
    We like to say sometimes, in our newsroom, that numbers and 
news tend to confuse. Don't say too many numbers over the air, 
because it does confuse. But, if you'll indulge me, I do want 
to offer you some numbers and hopefully it won't confuse too 
much.
    During the second quarter, which just ended, of this year, 
WABC aired a total of 321 PSAs and 434 crawls and snipes on 
this digital television transition. The PSAs aired over various 
day parts in our schedule, including prime time and during 
highly watched programs like Eyewitness News and the Oprah 
Winfrey show. Spots also aired on Live with Regis and Kelly, 
the morning television show produced by Channel 7 here in New 
York, which airs not just here but in more that 200 stations 
across the country.
    I'd like, if I could, to play a sample of one of our PSAs.
    Mr. Towns. Right, delighted, yes.
    Mr. Ritter. If you'll look at the screen over there, on 
your left.
    [Voice on PSA: The digital evolution is coming and ABC-7 
wants you to be ready. Digital TV has better picture, better 
sound, and more channels. In fact, digital is the very best way 
to experience television. Starting February 17, 2009, all 
broadcast TV has to be digital by law. Some TVs will need an 
upgrade to get digital and ABC-7 wants you to get the facts so 
you can continue to enjoy all your favorite programs. Visit DTV 
Answers dot com to learn more, or call this number to find out 
how you can be prepared.]
    Mr. Ritter. We have heard--I've seen it--I mean, I see it 
every day. I hope the people that watch Channel 7 have seen it, 
as well. And, you're going to be seeing a lot more of those. 
It's pretty direct, and I think very effective.
    This last weekend, we also aired a 30-minute special 
program on the DTV transition, and that will air again before 
the February deadline.
    In addition, over the last several months, Eyewitness News 
has aired DTV news stories, and we're going to continue to 
ramp-up our DTV consumer education coverage throughout the fall 
and early winter as the February deadline approaches.
    We are also in discussions with other New York City 
broadcasters to create a plan for some sort of coordinated 
over-the-air test some time in the coming months. It's going to 
go something like this: On television, we will say, ``If you 
can see this image, it means that you have an analog television 
set, and you will need a digital converter box to get the 
signal by February 17th, 2009, so you can continue watching 
television.''
    We are also, I should say, setting up several town meetings 
in the fall throughout the Tri-State area, not just New York 
City, where we can speak one-on-one with people who have 
questions about the digital transition. In fact, my bosses are 
here right now, and I want to say publically that I am 
volunteering to host some of those town meetings and talk 
directly to viewers who might have any questions, so that we 
get one-on-one time with people and faces they know from the 
news.
    Additionally, we're using the Internet to get this 
transition message out and prepare viewers for this rather 
dramatic change. We have placed a helpful DTV link on our Web 
page--7 online dot com--which guides people to the frequently 
asked questions and the easy answers they will need to make the 
transition.
    Our goal is pretty simple. We want to reach New Yorkers--
and indeed everyone in the Tri-State area--using every media 
platform at our disposal. It is not just our goal for the 
digital television transition, but it is, indeed, our goal as a 
television station and certainly as a news organization.
    To be frank, it's in our interest to make sure that as many 
viewers as possible are able to watch television, and we hope 
that means watching Channel 7 Eyewitness News. And, as the 
first responders in terms of public information during 
emergencies, it is also in the public's interest to make sure 
that everybody--every American and every New Yorker--has access 
to over-the-air television signals.
    I hope I've shown in this brief presentation just how 
committed we are to this. This is--no question about it, an 
enormous effort. The good news is that the Tri-State has some 
of the lowest numbers in the Nation of people who are actually 
affected by this. The overwhelming majority of people here have 
DTV capability already. That's the good news. And, there are 
many parts of the country where that, frankly, is just simply 
not the case.
    But we have, as an organization, something of a zero 
tolerance goal here. It's our responsibility--we know and we 
fervently believe--our responsibility to the communities we 
serve, that every viewer with a television be able to watch 
Channel 7.
    This is our philosophy as we proceed toward February 17, 
2009.
    I thank you for the opportunity to testify. If you have any 
questions, I'm here to answer those, as well.
    [The prepared statement of Mr. Ritter follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.003
    
    [GRAPHIC] [TIFF OMITTED] 48241.004
    
    [GRAPHIC] [TIFF OMITTED] 48241.005
    
    [GRAPHIC] [TIFF OMITTED] 48241.006
    
    Mr. Towns. Thank you very much, Mr. Ritter. What we're 
going to do is just have quick--we'll have Mr. Lloyd to 
present, and then we will raise questions for both of you.
    Mr. Lloyd is vice president of Strategic Initiatives of the 
Leadership Conference on Civil Rights and the Leadership 
Conference on Civil Rights Education Fund. There are 
approximately 200 national organizations representing people of 
color, women, children, organized labor, people with 
disabilities, seniors, gays and lesbians, and major religious 
groups for the goal of equality under the law through public 
education. This public education expertise will be very helpful 
today. So, we welcome you, Mr. Lloyd.
    You may start.

STATEMENT OF MARK LLOYD, VICE PRESIDENT, STRATEGIC INITIATIVES, 
LEADERSHIP CONFERENCE ON CIVIL RIGHTS AND LEADERSHIP CONFERENCE 
                 ON CIVIL RIGHTS EDUCATION FUND

    Mr. Lloyd. Thank you very much, Chairman Towns. And again, 
I congratulate you on holding this hearing and coming to the 
community, to allow the community to hear from its 
representatives. We hope that you don't get the heat when 
folks' television sets go off.
    Members of the committee, distinguished guests, and Yankees 
and Mets fans: It's a pleasure to be here in Brooklyn.
    As you said, my name is Mark Lloyd. I'm the vice president 
of strategic initiatives at the Leadership Conference on Civil 
Rights and the Leadership Conference on Civil Rights Education 
Fund.
    LCCR is the oldest and most diverse coalition of 
organizations working to protect the civil rights of all 
Americans through legislative advocacy. And, the Ed Fund is the 
sister organization working with LCCR to further the goal of 
equality under the law through public education.
    Given the fact that we represent a very broad coalition of 
organizations, I would not suggest here that my testimony fully 
represents the concerns of all of our coalition. With that 
said, we have consulted and are actively working on the DTV 
transition with several members of our coalition, both in 
Washington and in the field.
    In addition, LCCR is a founding member and steering 
committee member of the DTV Transition Coalition, a large 
coalition that includes government agencies, industry groups, 
grassroots and membership organizations, manufacturers, 
retailers, trade associations, civil rights organizations, and 
community groups.
    And so, as you mentioned in your opening remarks, this is 
not--my presentation is not a beat-up session about what folks 
are doing wrong, but an encouragement about what we can do to 
improve the process.
    I must say that despite the valiant volunteer work of our 
members and the DTV Transition Coalition, the Nation is simply 
not prepared for the shut-off of full-power analog television 
broadcasting. There is, in brief, too little funding for 
research, education, and outreach to ensure that when February 
17, 2009 arrives all Americans will continue to receive the 
over-the-air broadcasting service.
    As this committee knows, millions rely on broadcasting for 
emergency information, school closing, news and public affairs 
programming so necessary for local democratic engagement. We 
are concerned that the disproportionate impact of this 
transition will result in a greater divide, between those who 
have access to vital information and those who do not.
    We at the Leadership Conference are concerned that the 
working poor, that senior citizens, that a disproportionate 
number of African-Americans and Latinos, Asian-Americans, 
people with hearing or visual limitations, Americans living in 
rural areas will lose access to the vital lifeline of over-the-
air broadcast television.
    According to a recent survey conducted by the SmithGeiger 
Polling firm for the NAB, while African-Americans and Hispanics 
are increasingly aware of the digital television transition, 
they continue to trail the Nation as a whole. In New York, 91 
percent of Hispanics and 79 percent of African-Americans are 
aware that a transition is taking place, but only 32 percent of 
Hispanics and 23 percent of African-Americans can correctly 
identify the transition date.
    A majority of both groups do not think the transition will 
affect them. And, these are not households who all have cable. 
Cable penetration in New York is roughly comparable to 
penetration in the Nation as a whole. It's about 58 percent. In 
Brooklyn, cable subscriptions total on 54 percent of total TV 
households. Some of our communities are not clear that this 
transition will affect them.
    Earlier this month, the Leadership Conference completed an 
extensive report on the challenges regarding the transition to 
digital television. We submit that report to this committee, 
and ask that it be included as part of the record.
    The serious problems with the transition identified by the 
Leadership Conference include: Lack of viewer awareness; viewer 
and retailer confusion; TV converter box program problems and 
complexities; excessive and unanticipated costs and burdens to 
viewers to make the transition; confusion over low-power and 
community television stations; reports of unnecessary 
upselling; difficulties in procuring the proper digital 
converters; difficulties with the pass-through by digital 
converters of captioning and available video description 
services; and no rapid response plan to deal with the problems 
after February 17, 2009.
    While the Federal agencies most responsible for managing 
this transition--the NTIA--National Telecommunications 
Information Administration--and the Federal Communications 
Commission [FCC]--and a wide range of private stakeholders are 
working hard to address the impact of the transition, LCCR 
believes that the challenges involved in preparing Americans 
for the digital TV transition are of such magnitude that while 
active congressional oversight is important, strong 
congressional response is required.
    In short, our recommendations are as follows: Improve the 
organization of the transition. As the General Accounting 
Office has recommended, Federal leadership must be better 
coordinated. Fund increased consumer outreach, education, and 
research. Preserve communities' access to their low-power 
analog television stations. And, prepare for rapid response to 
the problems.
    And, let me close simply by saying this. Finally, the 
government can play an important role in conducting the 
research to identify those populations who are falling through 
the cracks. And, there must be plans in place to respond 
rapidly to those most vulnerable populations who end up losing 
service so they can get the education and, most importantly 
sometimes, the direct assistance that they will need.
    If low-income households, seniors, minorities, and persons 
with disabilities are cutoff because funds run out, Congress 
must allocate more funds to ensure that all Americans can make 
the transition to digital television.
    Thank you.
    [The prepared statement of Mr. Lloyd follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.007
    
    [GRAPHIC] [TIFF OMITTED] 48241.008
    
    [GRAPHIC] [TIFF OMITTED] 48241.009
    
    [GRAPHIC] [TIFF OMITTED] 48241.010
    
    [GRAPHIC] [TIFF OMITTED] 48241.011
    
    [GRAPHIC] [TIFF OMITTED] 48241.012
    
    [GRAPHIC] [TIFF OMITTED] 48241.013
    
    [GRAPHIC] [TIFF OMITTED] 48241.014
    
    [GRAPHIC] [TIFF OMITTED] 48241.015
    
    [GRAPHIC] [TIFF OMITTED] 48241.016
    
    [GRAPHIC] [TIFF OMITTED] 48241.017
    
    [GRAPHIC] [TIFF OMITTED] 48241.018
    
    Mr. Towns. Thank you very much, Mr. Lloyd. And, I move that 
we make the report a part of the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.019
    
    [GRAPHIC] [TIFF OMITTED] 48241.020
    
    [GRAPHIC] [TIFF OMITTED] 48241.021
    
    [GRAPHIC] [TIFF OMITTED] 48241.022
    
    [GRAPHIC] [TIFF OMITTED] 48241.023
    
    [GRAPHIC] [TIFF OMITTED] 48241.024
    
    [GRAPHIC] [TIFF OMITTED] 48241.025
    
    [GRAPHIC] [TIFF OMITTED] 48241.026
    
    [GRAPHIC] [TIFF OMITTED] 48241.027
    
    [GRAPHIC] [TIFF OMITTED] 48241.028
    
    [GRAPHIC] [TIFF OMITTED] 48241.029
    
    [GRAPHIC] [TIFF OMITTED] 48241.030
    
    [GRAPHIC] [TIFF OMITTED] 48241.031
    
    [GRAPHIC] [TIFF OMITTED] 48241.032
    
    [GRAPHIC] [TIFF OMITTED] 48241.033
    
    [GRAPHIC] [TIFF OMITTED] 48241.034
    
    [GRAPHIC] [TIFF OMITTED] 48241.035
    
    [GRAPHIC] [TIFF OMITTED] 48241.036
    
    [GRAPHIC] [TIFF OMITTED] 48241.037
    
    [GRAPHIC] [TIFF OMITTED] 48241.038
    
    [GRAPHIC] [TIFF OMITTED] 48241.039
    
    [GRAPHIC] [TIFF OMITTED] 48241.040
    
    [GRAPHIC] [TIFF OMITTED] 48241.041
    
    [GRAPHIC] [TIFF OMITTED] 48241.042
    
    [GRAPHIC] [TIFF OMITTED] 48241.043
    
    [GRAPHIC] [TIFF OMITTED] 48241.044
    
    [GRAPHIC] [TIFF OMITTED] 48241.045
    
    [GRAPHIC] [TIFF OMITTED] 48241.046
    
    [GRAPHIC] [TIFF OMITTED] 48241.047
    
    [GRAPHIC] [TIFF OMITTED] 48241.048
    
    [GRAPHIC] [TIFF OMITTED] 48241.049
    
    Mr. Lloyd. Thank you.
    Mr. Towns. So, thank you, so much.
    Let me begin by just asking--I know you have to go, so I 
wanted to sort of ask you a couple of questions before you 
depart, Mr. Ritter.
    You know, I checked your bio, before this hearing, and I 
was impressed with all the work you've done as an investigative 
reporter. So, I feel comfortable asking you this question.
    How do you recommend we work together to eliminate fraud 
and abuse that I think that could happen, you know, if we're 
not careful, in terms of this program? In terms of the 
converter boxes, you know, when you ask the price of the 
converter boxes, and some people will say $49, some people will 
say $59, some people will say $79, and then I even heard 
someone said $125.
    So, how do we avoid--and a lot of times, this will be 
senior citizens. How do we avoid, you know, them from being 
ripped-off? That's a real concern of ours.
    Mr. Ritter. That's a good question, Congressman, and I'm--I 
wish I could wave a magic wand.
    I mean, Mr. Lloyd, I think, you know--addressed that 
indirectly by saying that he's worried about how it's going to 
be implement. You know, the government could have--I know the 
government put a billion and a half dollars into this program, 
to buy these converters. It could have easily--and I didn't 
have a vote, because I wasn't a Member of Congress--the 
government could have said, ``You know what? We're going to 
fund it for two and a half billion, and we'll just pay for the 
whole thing, and all you have to do is go get it, and make it 
free.''
    But, that's not going to happen, and so we are faced with 
that situation. I think that's, you know, that's part of the 
educational program. These cards are worth $40. They give a $40 
discount. And for those people who can find them for $49.99, 
which I understand may be the cheapest price, according to the 
retailers we've talked to, they get a good deal. But, you have 
to be on the lookout for that. And, that's a good suggestion, 
and we should address that.
    And that's something I think--I'm not so sure that we 
have--we have not talked about it in our PSAs yet, because 
we're just dealing with hey, here's the deadline. But, it's a 
concern. It's a concern to you, and I think that it's a concern 
to a lot of people.
    It would have been nice had the government said, ``You know 
what? We're going to make sure that every American has the 
right to have over-the-air broadcasts, and this little card 
we're going to give you is going to be worth the cost of the 
converter,'' and the government helps supply it. They didn't do 
that. So, we have to be extra vigilant, to make sure that 
doesn't happen.
    I think the seniors are most at risk at this, and it's up 
to all of us to say, look, we've got to be careful here. This 
is what the range of prices are. Shop around for them. There 
are many retailers--most of the retailers, I believe, that are 
participating in this program are not going to try to gouge the 
public. And, I want to say that--I should say that first. 
That's the headline. You know, most of these retailers are 
upstanding, honorable retailers, and they're going to offer the 
fair pricing.
    Mr. Towns. Right. I yield now to my colleague, Yvette 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Ritter, you gave us a lot of information about how you 
personally, along with the organization that you work for, are 
making great strides to--I believe, at least bring awareness of 
the issue of the conversion that's imminent.
    I want to sort of pick up where Congressman Towns left off, 
with respect to the cost, and talk about how that's framed, in 
terms of perhaps a campaign. I think that the awareness 
campaign could probably benefit the public best by doing sort 
of a buyer beware within it. Oftentimes, you know, there's sort 
of a rush because it's the campaign and because the deadline is 
coming. And, you know, the next thing you know, people will 
show up in the neighborhood with a trunk full of converter 
boxes, you know? And, we don't want folks going through that.
    So, I'm just thinking in terms of collaboration. You have 
reputable outlets that will be marketing these converter boxes. 
Could there not be a parallel awareness campaign that talks 
about, you know, don't get ripped off, here are the reputable 
places. And perhaps, give those types of information to places 
that people trust--their local post office, their local DMV.
    So, what I'm talking about is more of a coordinated 
campaign that educates at a point where, you know, folks know 
about the rip-off and the flim-flam out there, but we want to 
be sure that in their haste to address this, that they don't 
get deals that are too good to be true.
    Mr. Ritter. Right, or bad converter boxes, or fake 
converter boxes----
    Ms. Clarke. Exactly.
    Mr. Ritter [continuing]. That sort of thing.
    Mr. Towns. Fake, yeah.
    Mr. Ritter. We are--as I say, we are ramping up our--we've 
had a lot of PSAs. I've never seen a quarter where so many 
PSAs--you know, more than 300--on any one subject. That's 
already historic in its proportions. And, we're going to do 
more for this in the next two quarters.
    But, I think that's something that's definitely worth 
consideration and exploration by the NAB and the Coalition for 
the DTV Transition, and it's a point well taken. It's a point 
well taken.
    Ms. Clarke. And then, I also thought about, you know, 
through the collaborative effort, how we really get business 
owners to be a part of the transition. People are coming 
through their doors each and every day, and putting some sort 
of leaflet in their bag that just says ``remember this date,'' 
you know, ``come back, see us soon'' could be another way of 
getting the word out and, you know, through the discussions 
that are being held, let everyone become sort of a stakeholder 
in making this happen. It could be a grocery store. It could be 
a shopping mall. It could be so many places where people gather 
publically.
    It could be cultural institutions. You know, for a station 
like PBS that exposes people to so many cultural activities and 
expressions, it may be, you know, that Broadway does a day for 
the digital conversion, or the Brooklyn Museum does a day of 
digital conversion.
    I'm just thinking about creative ways that the coalition 
that has been formed can include others where it impacts on 
ultimately their mission, as well.
    Mr. Ritter. Right. That's a good point. Just from the 
television point of view----
    Ms. Clarke. Uh-huh.
    Mr. Ritter [continuing]. We feel that--and I think we know 
that the most effective, most powerful medium that there is is 
television, and that people who are watching their television 
sets, who have analog, who will not get that signal after 
February 17, 2009, the most powerful way for us to do this is 
to--is to send out these messages throughout the day parts, 
dawn--you know, around the clock, getting out those messages 
that if you do have an analog television, if you can see this, 
you're not going to be able to see it on February 17th, and----
    Ms. Clarke. And the----
    Mr. Ritter [continuing]. That overall is the most powerful 
thing we can do, I think.
    Ms. Clarke. And then, in closing, Mr. Chairman, I see my 
time is winding down there, what about your sponsors? You know, 
we have a lot of corporate sponsors. That's basically how we 
get TV. I think they need to be on board here. This is going to 
be their bottom line, as well.
    So, I hope that in the conversations that you have, and the 
expansion of the coalition, with the help of our sponsors, we 
can make this happen for the American people.
    Mr. Ritter. I hope so. And, as you said, our sponsors are 
depending on us to get the message out, because they want to be 
reaching all the viewers, as well.
    So, we all have a very large self-interest in this. It's 
certainly in our self-interest to make sure that everyone has a 
television signal.
    Ms. Clarke. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Towns. Thank you very much.
    And, let me just ask this, as you get ready to depart. You 
know, you made one recommendation that the Congress should have 
paid for the whole thing,----
    Mr. Ritter. Well, I didn't--[laughter.]
    Mr. Towns. Yeah, I----
    Mr. Ritter. I was just asking the question.
    Mr. Towns. Yes.
    Ms. Clarke. Raising the issue.
    Mr. Towns. Raising the issue, OK. Raising the issue.
    Is there anything else that you think that the Congress 
should do, even at this point?
    Mr. Ritter. You mean about any subject at all? Is this an--
--
    Mr. Towns. No, no, no. [Laughter.]
    The transition.
    Ms. Clarke. You've got to keep it germane.
    Mr. Towns. Right. The transition.
    Mr. Ritter. Because, we could sit here all day.
    Mr. Towns. No, the transition.
    Mr. Ritter. Well, you know, I think having these kind of 
informational meetings. I think that, you know, this is not 
some big mystery tunnel that we're entering into. It's pretty 
clear what's happening, as clear as you can see that picture.
    And, I think the more times we can get the word out, the 
more hearings like this we have. As I think the 7-month 
deadline winds down, people are going to become more interested 
in it.
    You know, people are deadline-oriented, so we're going to 
keep hammering on this. The cards--some of them have deadlines 
on them. I think people are looking at deadlines. And, I think 
the more--the closer it gets, we're going to ramp up our 
coverage.
    The more we get the word out, through hearings like this, 
and the town meetings we do, the more public service 
announcements, and crawls, and information we get out on the 
televisions that people are watching, I think people will 
become aware of it.
    You know, you have to deal with some other issues that Mr. 
Lloyd talked about. What happens afterwards? But, it's in our 
interest to be involved in it, too.
    Right now, our focus is trying to figure out how we can get 
100 percent of the people on board with this by the time the 
deadline ends.
    Mr. Towns. Right. Well, let me thank you so much for your--
--
    Mr. Ritter. Well, I appreciate the opportunity.
    Mr. Towns [continuing]. Testimony. And, I think that, you 
know, what we need to do is just start having a countdown, you 
know, like they're doing with the election. They have a certain 
amount of days before the election. You know, I think we need 
to have----
    Mr. Ritter. 109.
    Mr. Towns. 109. [Laughter.]
    I think we need to have a countdown for the transition, as 
well, to just make certain that people are aware, you know, 
that this is going to happen, and continue to remind them, 
because I'm afraid that--that some people would get a voucher 
and not get a converter box, sort of procrastinate. And then, 
all of a sudden, the date is here and then they find out that 
they do not have a picture and then they call our office.
    Mr. Ritter. Well, it's our goal for that not to happen. 
Seven months from today, the television set on the right over 
there will not be able to get a picture.
    Mr. Towns. Right.
    Mr. Ritter. And that's very much on the top of our mind.
    Mr. Towns. Right, thank you. I know you have to depart. So, 
thank you very much.
    Mr. Ritter. Thank you.
    Mr. Towns. Mr. Lloyd, will you remain.
    Mr. Lloyd. Yes.
    Mr. Towns. Thank you, again.
    Mr. Ritter. Thank you. Take care.
    Mr. Towns. Thank you.
    Ms. Clarke. Thank you.
    Mr. Towns. Thank you very much.
    So, Mr. Lloyd, let me go to you. Do you think that most 
viewers of over-the-air analog television have learned enough 
about the transition through the news and commercials they have 
watched?
    Mr. Lloyd. Actually, I think most viewers have some sense 
that there is a transition taking place. Again, I'm not 
convinced that most viewers, particularly in the populations 
that we are concentrated on, know what the date is going to be 
for the transition or understand really how it's going to have 
an impact on them.
    This is a very complicated set of issues. Analog 
television, full-power television will make the transition. 
Analog low-power television, analog community broadcasters will 
not necessarily be making this transition.
    Ms. Clarke. Right.
    Mr. Lloyd. So there may be, in many communities, even some 
in New York, there may be some low-power analog broadcasters 
who will continue to put out analog services. So, we have a 
complicated transition occurring here, and not everything is 
going to happen at once.
    Mr. Towns. You know, my colleague indicated something that 
I think we really need to pursue, and maybe this is something 
you could help us with.
    You know, we talked about, in terms of getting corporations 
to participate, to be involved in helping to get the word out. 
And, that started the thought about the faith-based community. 
All of them have these conferences, you know, where all the 
clergy folks come together and they have a major conference.
    Have you thought about, in terms of trying to tap into 
that, maybe get speaking time, you know, at these events, to 
sort of share with them what's going to happen? Because, they 
talk to a lot of people on Sunday morning.
    Mr. Lloyd. Oh, yeah. You know, you're absolutely right. I 
mean, that--before I had an opportunity to think about it, 
there is a group called the National Black Church Initiative. 
That's been working with Black church groups around the country 
to make sure that congregations, that pastors, that ministers 
work with folks in their community, including corporations, 
small businesses, and large corporations in the community, to 
get the word out.
    This is, really, a fantastic initiative, understanding, 
particularly in the Black community, how powerful a voice the 
church plays. And so, folks are working on this.
    We are working with them. We're also working with the 
National Council of La Raza, we're working with the National 
Urban League, we're working with the NAACP, a group called the 
Southeast Asian Action Resource Center. We're working with 
AARP, the American Association of People With Disabilities. 
We're working with a wide variety of groups and communities 
around the country.
    And we're hearing both successes, about folks understanding 
this is happening, and taking some action about the coupon. 
And, we're also hearing some challenges about people not 
getting the right information when they go into stores, about 
there being some confusion, not because you get retailers who 
are trying to do terrible things in many instances, but just 
because, again, this is complicated. And, you get a new box, 
you get a new--and you get the antenna that you've been using, 
and it doesn't quite work. Do you need a new antenna? Maybe you 
do. The signals are going to be a little different. Analog and 
digital signals will be a little bit different.
    So, this is a complicated transition. It's going to take 
some time for all the folks in our communities to catch up.
    Mr. Towns. Right. Let me--have you heard of any people 
expressing concerns about the fact that you might have a 
voucher but no place to purchase a converter box? I mean, I'm 
concerned about that. I know we can talk about fraud and abuse 
before, someone coming in with a truck and saying, you know, 
you can buy them here for $40, you know, and they don't work. 
You know, I'm concerned about that.
    But then, the other one is that I have a voucher but no 
place to take my voucher.
    Mr. Lloyd. Right.
    Mr. Towns. You know, just like our housing program. You can 
get a voucher but can't find an apartment.
    Mr. Lloyd. Consumers have these patterns of buying things. 
So, we tend to go to the same stores over and over again. So, 
if we're used to going to, say, the Radio Shack down the 
street, and we're looking for a certain sort of converter box, 
and it's not there. And, we go away, and we go back the next 
week, and the converter box is still not there, you know, I 
can't find it, it's nowhere available.
    Many of the converter boxes you can actually get online. 
It's very--and so some of this is a burden on consumers, to 
sort of understand that there are some things--and, we also 
understand that not everybody is online.
    So, there are phone calls that folks can make. If you call 
up and you say, you know, ``I need to find the closest Radio 
Shacks, and Wal-Marts, and Sears,'' you may need to call those 
places to find out if they have the converter box that you are 
looking for.
    So sometimes, it's going to take a little bit extra effort. 
But what we have found, in sort of just doing some digging, 
actually, just around here in New York and Brooklyn, is that 
almost every place that someone might want to go, you can find 
the converter box. It may take you a little bit of time to find 
it, but you can find the converter box.
    Now, here is the challenge. We have senior citizens. We 
have folks who are busy with other things that they're doing in 
their lives and don't have time to get on the phone, calling 
up, you know, hundreds of different retailers to find the right 
box for them. Some of these folks will need some assistance to 
make that transition.
    But, in terms of the availability of converter boxes, by 
and large, particularly in large urban areas like Brooklyn and 
New York, you can find the converter box. You may need to make 
an extra effort to get out there and get it, though.
    Mr. Towns. Right. Let me just--and then I see my time is 
expired and I want to yield to my colleague. But just before we 
do that, you know, we talked about the price of the converter 
box. And, I still am thinking about seniors.
    You know, will they need to get somebody to hook that 
converter box up? That could be a cost. Because, they can't 
hook it up themselves, so then they have to get someone to come 
in to do it. That's going to cost them. And, nobody is talking 
about that.
    Mr. Lloyd. No, I mean, that's what----
    Mr. Towns. That's an extra cost.
    Mr. Lloyd. I mean, you raise a very important point. One of 
the things we've been writing about and talking about in our 
testimony and conversations with folks is that the coupon--we 
fully support the coupon program. We think it's a wonderful 
program. We think that Congress was actually fairly generous in 
creating this pot of money which is, you know, almost $2 
billion, to set aside some money so people could have it.
    But, many Americans, not just senior citizens--there are a 
number of us who aren't senior citizens, who aren't as 
technologically facile as others are. We will need some help in 
setting up these converter boxes and making sure that they work 
with our television sets. And, it is not as easy as just 
plugging the box in and seeing it work. You may need to work 
with the antenna, as we've done here, putting an antenna up on 
top of the exit sign, to make sure you can get the signal in 
properly.
    So, this will take some work. So, in addition to the 
education effort, and the PSAs, and the great work that folks 
are doing, we need some direct assistance money to go to places 
like Boys and Girls Clubs, to go to Meals On Wheels programs, 
to go to senior citizens programs, to go to people who direct 
service providers, who have direct contact with folks who are 
most in need and can help them actually physically connect 
these boxes and figure out how to make sure the antenna works 
in their homes, and in their bedrooms.
    And so that--and again, this is not about watching re-runs 
of ``Friends,'' or ``American Idol.'' This is about making sure 
that--people who depend on television, more than any other 
source, for emergency information, for information about 
tornados, and hurricanes, and terrorist attack. They go to 
their TV sets. We need to make sure that all Americans have 
access to this information.
    Mr. Towns. Right. I yield to my colleague, Congresswoman 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I, Mr. Lloyd, wanted to pick up on a couple of points 
raised by the Congressman, and ask, with respect to outreach.
    We have talked about clergy in the sense of the Christian 
community. My concern is also for the other faith-based 
organizations out there, and their constituencies, including 
immigrant communities.
    You know, there are a lot of ethnic enclaves here in the 
city of New York. And oftentimes, English is not the first 
language. So, the campaign, then, has to be penetrable into 
communities that are a little bit more insular due to their 
unique cultural, you know, affinities.
    Has your organization talked about how we penetrate 
immigrant communities, where English may not be a first 
language, where that then compounds the situation with the 
elderly and newcomers to our communities?
    Mr. Lloyd. I really want to applaud your sensitivity about 
this set of issues. It is just so extraordinarily important to 
understand that not all Americans who may be watching 
television, you know, rely entirely on mainstream television 
for their news and information or even entertainment 
programming. It is extraordinarily important to be able to 
reach communities with people that they trust, the sources that 
they trust, and the languages that they rely on, in the way 
that they speak.
    This isn't just about how you speak Spanish. I mean, you 
may speak Spanish in a way that's a little different than the 
way other people speak Spanish. And, I really appreciate your 
sensitivity about these sets of issues. And Brooklyn, as you 
know, is an extraordinarily diverse community, as is the entire 
New York.
    And, I also must applaud NTIA. They put out programs that 
are in dozens of languages, to make sure that all Americans 
have an opportunity to fill out these coupon programs and the 
vouchers, so that they can actually apply in languages that 
they are comfortable with. And so, the Federal Government has 
actually done a fairly good job about this.
    We must do more. We are going to make sure that the folks 
who speak Yiddish, that the folks who rely on Russian language, 
the folks who rely on all the different languages in our 
communities, folks who are speaking Creole----
    Ms. Clarke. Uh-huh.
    Mr. Lloyd [continuing]. You know, from, you know, 
immigrants from Haiti. We need to make sure that these 
communities also understand this transition is taking place, 
that it will have an impact on their services, their needs. We 
don't want anyone left behind, you know, in the case of a 
terrorist attack or some other sort of, you know, natural 
disaster.
    We need to be able to make sure that these folks understand 
this transition is taking place, and they understand how they 
can prepare for it.
    I thank you for your question.
    Ms. Clarke. And, I wanted to also find out whether 
utilities are actually engaged in this process. Because I 
think, for most people, generally speaking, they trust their 
utilities because there's a constant interaction with them; 
whether it's their telephone service, whether it's their mobile 
phone service, whether it's their computer link up service, or 
their cable service. They are all sort of vying in that same 
arena to be able to provide information to people.
    Are they engaged in this process, as well? Because if I 
were to get a call from Cablevision, or a text from 
Cablevision, that says to me ``Have you gotten your converter 
box'' today, then it would be on my mind constantly, because 
that's a company I trust. I pay them money every month and, you 
know, I know they want me to continue to be their customer.
    Have we done any type of collaboration with the utilities?
    Mr. Lloyd. Yes. Well, let me--let me say that I sit on the 
consumer advisory board for Verizon, OK.
    Ms. Clarke. Uh-huh.
    Mr. Lloyd. And, they provide some service in your 
community. And, they are very aware of the transition, and have 
a team dedicated to make sure that folks who rely on Verizon, 
whether it's just the regular telephone service or, I know, the 
more advanced fiber service is coming to the New York area, 
they are working to make sure that their customers are aware of 
this transition, and that folks are putting things in bill 
stuffers, and they're working with other folks.
    If you will allow me, I will sort of try to step aside some 
of the challenges with the cable industry.
    Ms. Clarke. Uh-huh.
    Mr. Lloyd. But--but only to say that we are working with 
the cable industry. They realize how important it is that this 
transition is taking place.
    I will say this, though. Over-the-air television is very 
different from cable. I think many cable operators are right 
now sort of not saying they're going to charge folks extra 
money to get a digital converter box in addition to the cable 
box that they've got now. But, I think consumers have to be 
very, very wary, and make sure that they continue to have that 
conversation with cable, to make sure that their rates don't go 
up as a result of this transition.
    Ms. Clarke. I agree.
    Mr. Lloyd. Just make sure you have that conversation.
    Ms. Clarke. Thank you, Mr. Chairman.
    Mr. Towns. All right. Thank you very much. And, let me 
thank you, Mr. Lloyd, for your testimony.
    But, before you leave, is there any suggestions or 
recommendations that you have for us, on things that we might 
need to be doing in order to sort of make this transition, you 
know, a very smooth one?
    Mr. Lloyd. Well, let me--let me both congratulate 
Congressman Dingell and Senator Inouye for working with NTIA to 
make sure that there were extra moneys available beyond the 
initial allocation of funds, so they could help get the word 
out.
    And, I would urge Members of Congress to work with NTIA and 
the FCC to make sure that money gets to the folks who provide 
direct service to those communities, whether they speak other 
languages, whether they are senior citizens, whether they are 
folks in low-income neighborhoods. Make sure the direct service 
providers get those funds, and get the word out about this 
transition.
    The second thing is, we must have some plans in place, 
because there will be viewers who will not be on top of this on 
February 17th. The coupon program is going to extend beyond 
February 17th. We need to have a plan in place to identify, and 
to be able to contact, and then to assist those communities.
    So, we need to put in a rapid response plan for those 
communities that, for one reason or another, despite all of our 
best efforts, may fall through the cracks. And so, I would urge 
you to work with NTIA and the FCC to make sure that they put in 
a rapid response plan, to make sure that those folks who fall 
through the cracks are on board with this transition.
    Mr. Towns. All right. Thank you very much----
    Mr. Lloyd. Thank you very much.
    Mr. Towns [continuing]. And thank you for the work that 
you're doing.
    Mr. Lloyd. Well, thank you. This is so important to bring 
this into the community. Thank you.
    Mr. Towns. All right. It's a pleasure. Thank you for your 
testimony.
    Ms. Clarke. Thank you.
    Mr. Towns. Thank you.
    And now, we will move to our second panel. Please, second 
panel, please come forward.
    I would like to welcome our second panel. As with the first 
panel, it is a longstanding policy of this committee that all 
witnesses are sworn in.
    So, if you would be kind enough to rise and raise your 
right hands?
    [Witnesses sworn.]
    Mr. Towns. Please have a seat. Thank you.
    Let the record reflect that they answered in the 
affirmative.
    Let me begin with Ms. Meredith Attwell Baker. She is Acting 
Assistant Secretary for Communications and Information, and 
Acting Administrator of the National Telecommunication 
Information Administration [NTIA].
    NTIA is the President's principal advisor on 
telecommunications and information policy, and is the agency in 
charge of the DTV converter box coupon program. So, we welcome 
you.
    I would also like to welcome Monica Desai. She is currently 
Chief of the Media Bureau at the Federal Communications 
Commission, since 1999. She has worked at the Commission in a 
variety of capacities, including Chief of the Consumer and 
Governmental Affairs Bureau, and Interim Legal Advisor to then-
Commissioner Martin on Special and International Issues.
    She has extensive knowledge of the FCC's evaluation of the 
DTV transition to date.
    I welcome both of you, and let me begin with you, Ms. 
Baker. You have 5 minutes to summarize your testimony. Then, 
after that, you'll allow us to raise some questions with you.
    So, we will start with you first, Ms. Baker.

     STATEMENT OF MEREDITH ATTWELL BAKER, ACTING ASSISTANT 
      SECRETARY, COMMUNICATIONS AND INFORMATION, NATIONAL 
    TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Baker. Terrific. Thank you very much. Good morning--
almost afternoon--Chairman Towns, Congresswoman Clarke.
    Thank you for the opportunity to testify about the process 
of the digital television transition and the TV box coupon 
program which is administered by NTIA. It's especially nice to 
be here in Brooklyn. Thank you for holding this hearing and 
helping to get the word out about the digital transition.
    I am pleased to be before you today to discuss NTIA's 
successful launch of the program and our strong commitment to 
continue public education and outreach efforts so that this 
historic and important transition can take place and no 
American television viewer is unprepared on February 18, 2009.
    Consumers throughout this country are becoming well 
prepared for the transition. The Deficit Reduction Act 
established a Digital-to-Analog Converter Box Coupon Program. 
Under the act, a $1.5 billion program, eligible U.S. households 
may obtain up to two coupons of $40 each to be applied toward 
the purchase of converter boxes that will convert digital 
broadcast signals for display on analog television sets.
    When NTIA sends coupons to the requesting households--they 
look like this--NTIA includes a list of participating stores 
near the consumer at the bottom of the paper. It is important 
to note that the coupons expire in 90 days after they are 
mailed. The 90-day expiration date is a statutory date, and is 
meant to ensure that if a consumer buys a digital television, 
or subscribes to a pay service, or just retires an unconnected 
analog television, rather than using the coupons he or she 
requested, the value of the coupons can then be recycled to 
send coupons to other consumers.
    Throughout the past 7 months, the level of consumer 
participation in the program has been extremely high. As of 
July 16th, NTIA has received requests from nearly 11 million 
households, for over 20.5 million coupons. Coupon requests 
continue to average, very consistently, about 104,000 per day. 
Over half of the requesting households--50.3 percent--identify 
themselves as relying exclusively on over-the-air broadcasts to 
receive television programming. A coupon ordered today can be 
expected to be issued and mailed within 10 to 15 business days.
    As distributed but unredeemed coupons expire, funds 
otherwise obligated to these coupons will be returned to the 
coupon program. The program has anticipated and budgeted for 
the distribution of additional coupons beyond 33.5 million, 
toward which these returned funds will be re-obligated.
    The number and unit price of these coupons ultimately will 
determine the total administrative costs associated with the 
distribution of these additional coupons. NTIA is working 
closely with our contractor, IBM, to ensure that as many 
coupons as possible can be distributed.
    As of July 16, 2008, consumers have redeemed more than 6 
million coupons toward the purchase of coupon eligible 
converter boxes. Coupon redemption rates are an important 
factor in calculating the coupon program spending. Coupons are 
being redeemed at a rate of 44.4 percent.
    NTIA is very pleased with the high level of participation 
in the coupon program by converter box manufacturers. As of 
July 16th, NTIA has certified 112 converter boxes, of which 37 
are analog pass-through.
    The response from America's retailers has, likewise, been 
outstanding. As of July 16th, there are more than 2,300 
participating retailers in the coupon program, including seven 
of the largest consumer electronics retailers, as well as 
hundreds of regional chains and small retailers. These 
retailers represent 26,512 participating outlets nationwide, 
including locations in all 50 States, American Samoa, Guam, 
Puerto Rico, and the U.S. Virgin Islands.
    Additionally, consumers can choose from among 26 online 
retailers and 13 telephone retailers. In short, consumers, even 
those in areas where the closest consumer electronics retailer 
is 50 or 100 miles away, have ready access to coupon eligible 
converter boxes. A list of all participating retail outlets, 
searchable by State and by five-digit ZIP Code, can be found on 
our Web site: Under ``locate a retailer near you.''
    A member of my staff, Brian Danza, would be pleased to stay 
around and show anyone the Web site, or help them order a 
coupon afterwards.
    Industry and government consumer education efforts are 
clearly working, and we are pleased with the continued 
participation.
    NTIA has hired IBM to oversee the program. IBM and its 
subcontractors are tracking coupon redemption rates in real 
time. This will help NTIA monitor supply and demand.
    Educating consumers about the coupon program is one of 
NTIA's and the Commerce Department's top priorities, in which 
both Commerce Secretary Carlos Gutierrez and I have been 
regularly and actively engaged. In particular, a key message we 
are delivering to consumers is that while the analog cutoff 
date will occur on February 17, 2009, the time for consumers to 
experience the benefits of DTV is now. The time to order a 
coupon and purchase a box is now.
    According to Nielsen, New York City is one of the most 
prepared cities for the digital television transition. As of 
July 17th, over 732,000 coupons have been requested by 
consumers in the New York DMA, and over 175,000 have been 
redeemed.
    Locally, we are working with the Harlem Consumer Education 
Council to conduct a community event in mid to late September, 
providing New Yorkers who have not yet completed an application 
the opportunity to do so. NTIA staff has brought you 500 coupon 
applications today, and we are happy to provide more if your 
staff desires.
    We are also happy to organize further town hall meetings. 
We compliment you for holding this meeting here today. If we 
can help you on mailers to your constituents, we would also 
like to do that, or helping with Web site links. Congressional 
outreach is a very important and impactful part of this 
program.
    So, working with IBM, NTIA has developed a comprehensive 
and rigorous approach to deterring waste, fraud, and abuse in 
the program. In terms of retail certification, participation 
and payment, NTIA has protections in place to minimize 
opportunities for inappropriate retailer behavior. We are also 
ensuring that no more than two coupons are sent to each U.S. 
household, per the statute, and that consumers are unable to 
use the $40 coupon to purchase ineligible products.
    To protect consumers, we have just issued a consumer 
checklist in helping consumers navigate the program, and we 
worked with the FTC and the FCC on a tip sheet to arm consumers 
with the information they need to make the right decisions for 
their household.
    Thank you very much, for the invitation to be here today. 
And, I'll be pleased to take any questions that you have.
    [The prepared statement of Ms. Baker follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.050
    
    [GRAPHIC] [TIFF OMITTED] 48241.051
    
    [GRAPHIC] [TIFF OMITTED] 48241.052
    
    [GRAPHIC] [TIFF OMITTED] 48241.053
    
    [GRAPHIC] [TIFF OMITTED] 48241.054
    
    [GRAPHIC] [TIFF OMITTED] 48241.055
    
    [GRAPHIC] [TIFF OMITTED] 48241.056
    
    [GRAPHIC] [TIFF OMITTED] 48241.057
    
    [GRAPHIC] [TIFF OMITTED] 48241.058
    
    [GRAPHIC] [TIFF OMITTED] 48241.059
    
    [GRAPHIC] [TIFF OMITTED] 48241.060
    
    [GRAPHIC] [TIFF OMITTED] 48241.061
    
    [GRAPHIC] [TIFF OMITTED] 48241.062
    
    [GRAPHIC] [TIFF OMITTED] 48241.063
    
    [GRAPHIC] [TIFF OMITTED] 48241.064
    
    [GRAPHIC] [TIFF OMITTED] 48241.065
    
    Mr. Towns. Right. Thank you very much, Ms. Baker.
    Now, Ms. Desai.

 STATEMENT OF MONICA SHAH DESAI, CHIEF, MEDIA BUREAU, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Ms. Desai. Good morning, Chairman Towns and Congresswoman 
Clarke.
    On behalf of Chairman Martin, we thank you for inviting us 
here to update you on the status of the digital transition and 
the FCC's recent efforts in that regard.
    The broadcasters are making significant progress in 
converting their facilities to all-digital. Over 90 percent are 
broadcasting a digital signal, and nearly 1,000 have completed 
construction and are providing full service to their viewers. 
The New York DMA contains 23 full-power stations, and all are 
currently broadcasting in digital. Thirteen of those stations 
are already on their final digital channel, and the remaining 
10 are in progress to convert to their final channels. They 
already have their construction permits.
    The Commission's DTV-related enforcement efforts have 
focused on protecting consumers through enforcement of our 
labeling rules, our tuner requirements, and our V-chip 
regulations. In addition, as of July 14th, field agents across 
the country have visited over 1,200 stores, interviewed over 
1,100 store managers in 44 States. And, in New York City, we 
have visited eight stores and conducted seven interviews. To 
date, we have found that the majority of store managers are 
well informed of the digital transition and the NTIA converter 
box program. Our field agents are providing stores with 
information tip sheets and conducting staff training sessions 
when we find those are needed.
    With a little less than 7 months to go, the industry, 
consumer groups, and the Commission are actively reaching out 
to consumers to alert them of the upcoming transition and 
inform them about the steps that they'll need to take.
    According to various surveys this spring, the percentage of 
consumers aware of the transition has grown to between 84 and 
90 percent. Notably, as I think others have mentioned, the 
survey reported that 89 percent of New York households are 
aware that the full-power television stations will be switching 
to an all-digital format.
    That the more viewers are aware of the transition is a step 
in the right direction. But now, we need to focus on making 
sure that those consumers know what they need to do.
    Congresswoman Clarke, you mentioned in the earlier panel, 
that you would like to look at more creative ways of reaching 
consumers, various segments of the population. Well, here is a 
sampling of what we're doing now, and if you've got other ideas 
and, you know, other things that you'd like us to work on, we 
would welcome your--both of your suggestions.
    The Commission has so far conducted over 1,400 DTV 
awareness sessions.
    Mr. Towns. Could you pull the mic just a little closer to 
you.
    Ms. Desai. Oh, I'm sorry.
    Mr. Towns. Yeah.
    Ms. Desai. The Commission--is this better?
    Mr. Towns. Yes, much better.
    Ms. Clarke. Much better.
    Ms. Desai. Oh, OK. Sorry.
    The Commission had conducted over 1,400 DTV awareness 
sessions, attended over 280 conferences and events, held 300 
partnership meetings, and made over 6,700 visits to various 
organizations around the country to disseminate DTV 
information.
    In the New York City area, we have conducted over 50 DTV 
awareness sessions and attended 10 conferences and events so 
far.
    We have distributed over 5.6 million pages of our DTV 
publications nationally to individual consumers, consumer 
agencies, and to organizations.
    This month, we are mentioned--and I think you had mentioned 
wanting to partner with post offices----
    Ms. Clarke. Uh-huh.
    Ms. Desai. We are displaying DTV education posters in all 
34,000 post offices across the country, including the post 
offices in New York City.
    In addition, we have distributed another 8,600 posters 
nationwide, so far.
    You mentioned the Department of Motor Vehicles. We have 
secured commitments so far from 36 States to display DTV 
materials in their offices.
    We have distributed radio PSAs to all of the radio stations 
in the country, including those in the New York City area.
    Currently, TV PSAs are in production. So, we're working on 
those and hope to get those rolled out soon.
    Our outreach efforts, as do the NTIA's, recognize that 
certain populations are more vulnerable in this transition. 
Those include seniors, people with disabilities, people with 
lower incomes, minorities, non-English speakers, those living 
in the rural and tribal areas. And so, our outreach efforts are 
particularly focused on those populations.
    Just as an example of what we're doing to try to reach--
just to illustrate what we're doing with one of those groups, 
non-English speakers, as well as with minorities, here are some 
examples: All of our DTV publications are available in Spanish. 
Also, our most widely DTV one-pager is now available in 18 
languages, as well as braille and audio formats. We've brought 
samples of those, as well the English/Spanish one-pager, as 
well the Russian one, as well as some in braille. And, if you'd 
like samples of other languages, we're happy to pass them along 
to your staff.
    We have conducted 15 DTV awareness sessions and attended 
more than 31 conferences or events, and had 8 partnership 
meetings, all targeting the Hispanic population. In the New 
York City area, we have commitments from Casa Puebla, the 
Puerto Rican Family Institute, the Community Association of 
Progressive Dominicans, and Alianza Dominicana to distribute 
DTV educational materials to consumers directly.
    We have partnered with Univision across the country. In New 
York, Univision conducted a presentation for senior citizens in 
the Berkeley Heights Senior Group.
    We're exhibiting and presenting DTV information at 
conventions and conferences targeting minority communities and 
umbrella organizations, such as the National Black Expo, the 
NAACP Convention in Ohio.
    I think you mentioned faith-based organizations. We're 
working with the National Black Church Initiative to target 
populations. Like the NTIA, we're working with the Harlem 
Consumer Education Council, and we have worked with the Rainbow 
PUSH Wall Street Project Conference, as well.
    On May 8th, Chairman Martin announced that Wilmington, NC, 
would be the first market in the country to make the transition 
to digital television. The commercial broadcasters serving that 
market voluntarily agreed to lead the Nation with an early 
transition date of September 8th. For the past 2 months, we've 
been working with the local broadcasters, NTIA, industry and 
community groups to prepare for the early transition.
    This test market will provide us all with an opportunity to 
assess the effectiveness of our outreach and technical efforts. 
And so, it will be very important and helpful in preparing us 
for the nationwide transition in February.
    In conclusion, the Commission is devoting significant 
resources to facilitate a smooth transition. Nearly every 
bureau and office at the Commission has been involved in this 
effort, including our field offices across the country.
    We intend to take whatever actions are necessary to 
minimize the potential burden the transition could impose, and 
maximize the consumers' ability to benefit from it.
    Thank you. I'd be happy to take questions.
    [The prepared statement of Ms. Desai follows:]
    [GRAPHIC] [TIFF OMITTED] 48241.066
    
    [GRAPHIC] [TIFF OMITTED] 48241.067
    
    [GRAPHIC] [TIFF OMITTED] 48241.068
    
    [GRAPHIC] [TIFF OMITTED] 48241.069
    
    [GRAPHIC] [TIFF OMITTED] 48241.070
    
    [GRAPHIC] [TIFF OMITTED] 48241.071
    
    [GRAPHIC] [TIFF OMITTED] 48241.072
    
    Mr. Towns. Thank you very, very much. I want to thank both 
of you for your testimony.
    But, let me just sort of raise some issues that, you know, 
I'm really concerned about. Because I think that as we move 
forward, you know, and I'm happy to know that at least there is 
a test project in Wilmington, NC. I thought that was wise. I 
want you to know that I really, really salute them and applaud 
them for, you know, doing that, in terms of having a small 
pilot program just to try to work some of the bugs out.
    But, let me just raise this question. I know that the 
voucher lasts for 90 days. You know I'm thinking about that 
seniors, you know, after 50 or 60 days, 65 or 70 days, they go 
into the hospital. Then, they have their voucher. When they 
come out of the hospital, the voucher has expired.
    How do you deal with a situation like that? Because, you 
know, I just can envision, you know, these kind of things 
happening. And, of course--and, when this occurs, they're going 
to come to Congresswoman Yvette Clarke's office, and they're 
going to come to my office, you know, and the voucher has 
expired.
    So, is there any way that it can be recycled, or a letter 
could go in, to ask for an extension, or any kind of telephone 
call to you, that would allow you to extend the time?
    Ms. Baker. I share your concerns. And, I am very 
sympathetic to this particular issue.
    We have worked with our general counsel, and we do--the 
90--first of all the 90-days is statutory. But, it's a useful 
tracking device for us, so that we know how much money we have 
left on the coupon program.
    One thing that we did to try and help this problem, is that 
the coupons are transferable. So, if a friend, or a family, or 
a neighbor, if your coupon expires, someone can help you and 
actually transfer--give you their coupon. While it's illegal to 
sell them, they are transferable.
    So, we are encouraging those who have expired coupons to 
turn to friends, and neighbors, and church groups for 
assistance in this--in getting another coupon.
    Also, if you only have one coupon, you can go back in and 
get another one. If you just ordered one to start off with, you 
can also go and ask for another coupon, and you'll receive the 
second coupon.
    Mr. Towns. The reason I raise this is that, if the coupon 
would, you know, pay for the entire converter box, then I don't 
think it would be a problem. But, you will have people waiting 
for their check in order to be able to go to buy a converter 
box. Because, after all, they have to put money with the 
coupon. And then, in the process of that, getting ill, or the 
process, I mean, so I just think that we need to try to come up 
with some kind of--I understand it's statutory, but my point is 
that we need to look at some ways that we might be able to--to 
assist them. Because, you know, inasmuch as, you know, they're 
not going to get the coupon and go that day, and--and buy the 
converter box.
    And some people really will have difficulty getting that 
converter box, you know, because of the fact that they just 
don't have any extra money. And, the converter boxes that 
anybody that goes to get the converter box, not--I mean, who 
have income, that does not affect them in any kind of way. But, 
there are some folks that are really going to have problems 
putting together the resources to get that converter box.
    Have you thought about, you know, something that might be 
done for them? Because, if you give the coupon away, it still 
doesn't solve your problem.
    Ms. Baker. Again, I am sympathetic. And, I think part of 
our outreach is to trusted intermediaries of people who work 
with vulnerable groups, and we've been working to get the 
message out that they are transferable and that people should 
look out for, you know, their--our vulnerable groups, really, 
as Monica mentioned--we share them. The elderly, the disabled, 
the rural, the low-income, and the minorities. So particularly 
in these groups, where we're working so hard on consumer 
education, I think getting the word out that these coupons are 
transferable and that you--this is something that America 
really needs to join together and help each other make this 
transition is--is the word that we are trying to get out.
    Mr. Towns. Uh-huh.
    Ms. Baker. And also, we have changed our messaging to make 
sure that people know use your coupon now, don't wait. You 
know, when you get it, do your homework, and go get your 
converter box.
    Mr. Towns. How will we get feedback from the Wilmington 
project.
    You know, how would we know of some of the problems that 
you've encountered? How will that be shared?
    Ms. Desai. Well, you know, we are going through that 
process now. And we're going to be evaluating as things 
progress, in making adjustments or publications, adjustments to 
our Web site. And so, we're reacting, you know, now to what's 
going on in Wilmington.
    And, we anticipate that, at the end of the project--
September 8th is when the switch will happen in Wilmington--
we'll be able to more comprehensively provide information to 
everyone about lessons learned and, how we should adjust for 
the nationwide transition.
    But, it will be at some point after September 8th.
    Mr. Towns. Uh-huh. I yield to my colleague, Yvette Clarke.
    Ms. Clarke. Thank you, Congressman Towns.
    I want to tell you that I share your concern about the 
logistical challenges. We understand that there is a 90-day 
statutory expiration, but I think within that we're going to 
have to look at some creativity, because there are going to be 
unintended consequences of having that 90-day deadline once you 
actually receive the coupon. And, there are things that you 
just can anticipate.
    Every individual human being is going to have a different 
reaction, to why they have actually gone and gotten the coupon 
to begin with. That may be driven by the educational campaigns 
and so, the educational campaigns are key here.
    Once someone gets or then says they want a coupon, the 
assumption then is that they have the commensurate dollars to 
add to the coupon to go ahead and then get the converter box. 
That may not be the case for everyone, based on how the 
education campaign is, if there is a pressure building because 
things are about to change.
    I'll give you an example. I remember when the Nation was 
preparing for the year 2000. And, the whole issue of what's 
going to happen with computers, and things of that nature. And 
then, we were all asked to sort of get certain provisions in 
our home, in case, you know, something--Y2K. Remember that? 
Does everyone remember Y2K?
    Well, I'll tell you. In my head, I'm saying, yeah, yeah, 
yeah, this is all hyped up, Y2K. And, I knew this 
instinctively, intuitively, but there was this energy in the 
community around Y2K. And, I can remember going to the 
supermarket at, like, midnight, and getting the last two 
bottles of water that were on the shelf. True story. True 
story.
    We wake up the next day and it's, like, yeah, 2000, 
whatever. Hey, that's not going to be the case with these 
converter boxes. I think that once the coupon expires, that's 
when the panic starts.
    And so, we have to look at those 90 days and how creatively 
we can educate, inform, get those partnerships going, as you 
said. The people who would have to transfer over. I mean, 
that's real logistics.
    And, I don't know, in terms of the partnership with IBM, 
how far it goes in terms of tracking what they put out. Is 
there something built in that, in 30 days, that could indicate 
to IBM and, therefore, NTIA, that a coupon has not been used 
yet? That's my first question.
    Ms. Baker. Yes, yes, absolutely.
    Ms. Clarke. OK.
    Ms. Baker. We track it, because some people are making 
other--they're making the transition in other ways. They are 
buying--they might be buying a digital television. They might 
be getting a pay service. I mean, some of the expiration--they 
might decide--they might have been a cable customer that didn't 
understand that they didn't need a coupon or a box.
    Ms. Clarke. And so, IBM would be able to tell you if 
someone applied for a coupon but has not used it in the past 30 
days.
    Ms. Baker. Yes.
    Ms. Clarke. OK. Is there something put in place that could 
then alert that person, that their coupon will expire in 60 
days if they don't use it soon? Do we have something like that 
built in? A notification process, something that would flag it 
for that person.
    Ms. Baker. I think it's a very interesting idea. IBM can do 
it, but----
    Ms. Clarke. That's within the statute time, you know, if we 
dig outside----
    Ms. Baker [continuing]. IBM can do it. I think it's the 
cost.
    Ms. Clarke [continuing]. The box. Yeah, we're thinking 
about the cost, but the cost to Americans if they don't move 
could be even more tremendous, right? There could be issues of 
commerce, healthcare, a whole bunch of things that are implied 
with this.
    So, you know, I don't know if it's possible, but I'm just 
thinking, that we have to think about what we can do 
logistically, within those 90 days, to bring some awareness, 
and education, and focus to, you know, what not using the 
coupon could mean.
    Because when the 90 days expires, you don't want people 
feeling desperate, because their coupon has expired, and some 
guy comes up to them and says, ``I've got coupons.'' You know 
what I'm saying?
    Next, the instinct of the human being is, ``Man, my coupon 
ran out. I have no other alternative. This guy's got coupons.'' 
It opens up the door for some other unintended consequences.
    So, I'm urging that we look at how creative we can be with 
the statute. And, I understand cost, but I think the cost is 
going to be more if, at the end of the day, people are just 
caught, blind-sided, notwithstanding the fact that they applied 
for it themselves. It's just the pressure of the environment 
that's going to be created around it, along with whether they 
used it or not.
    Ms. Baker. I'd be happy to look into it, and come back and 
visit with you about that.
    Mr. Towns. Let--let me----
    Ms. Clarke. Thank you very much, Ms. Baker. I yield back to 
the chairman.
    Mr. Towns. Oh, you yield back.
    Ms. Clarke. Uh-huh.
    Mr. Towns. OK. Well, let me just add to that, that what if 
there's a shortage in early February, due to high demand, that 
they--there's no converter boxes available? I mean, how would 
you handle that situation?
    I'm sort of adding, as you get back to her, you can sort of 
put that on it, too. Because, I think that if there is a high 
demand, and people go and they purchase all the converter 
boxes, here I have a voucher, and no converter boxes. You know, 
just like people running around now with vouchers, and no 
apartments, you know, and they've got a voucher.
    Ms. Clarke. Uh-huh.
    Mr. Towns. But, the point of that--there is no apartment, 
so therefore what good does your voucher do.
    And so, I'm saying that if there is a great demand and then 
there's no converter boxes, and I have my voucher but, I can't 
get a converter box, and then it's sitting and it expires, and 
then I'm stuck. I mean, I think we need to sort of look at 
that.
    And, I'm hoping that the Wilmington situation will give an 
opportunity for you to focus on it, because I think that there 
is a lot of things that we need to address. And, I really feel 
that there needs to be a little more flexibility because this 
is major, you know, I mean, it is major. And, I can envision 
people waking up, and all of a sudden they're seeing cotton, 
you know, on their televisions, you know? And that's going to 
be, I mean, very chaotic, you know?
    And, I guess while I'm on that issue now, I know you had a 
sort of negative experience in Puerto Rico. Do you want to just 
share that with us for a minute?
    Ms. Baker. Yeah, I'd be happy to. It's worth--it's an 
interesting situation. I'll share the concerns in Puerto Rico.
    Puerto Rico, at 39 percent over-the-air, has the highest 
percentage of over-the-air households of any market. There are 
4.1 percent here in New York.
    These consumers are taking action, which is good, so that 
they--due to the strong consumer education campaign that's been 
under way amongst the broadcaster and consumer groups. Puerto 
Rico also has the highest household participation rate of any 
market in the coupon program. Over 50 percent of Puerto Rico 
households have requested coupons.
    So, we're very aware of the Puerto Rico converter box 
inventory situation, and we've taken actions to assist the 
consumers. We've directed our retailer support system to reach 
out to the retailers which are in Puerto Rico, to alert them of 
the consumer concerns, and to encourage them to stock 
additional boxes.
    We have communicated with the high-level government 
officials, including the Representatives of the Commonwealth of 
Puerto Rico, as well as the Small Business Committee, Chairman 
Velasquez's staff, regarding the need for retailers to meet the 
strong demand in Puerto Rico.
    We're providing real time request data and redemption data 
to all officials, retailers, and the community, so that they 
can get converter boxes into the areas that are requesting 
coupons.
    We have made all coupon program information available in 
Spanish. And consumers can also apply for the coupons via Web 
or the toll free number, which can also get you a live Spanish 
operator. So, we've actually increased our Spanish language 
operators, as well.
    The result of the actions is that the retailers have 
responded to the consumers' needs. And, in fact--for example, 
in the past 10 days, 60,000 coupons have been redeemed in 
Puerto Rico. They're averaging 20,000 a week. And, just putting 
that in perspective, in Puerto Rico, 225,000 coupons have been 
redeemed; and here in New York, 175,000 coupons have been 
redeemed. So, there's just a very high demand in Puerto Rico, 
and we hope that the steps that we are taking have been helping 
to address the situation.
    Mr. Towns. All right. I guess my question is this: How 
often are you in contact with the retailers regarding the TV 
converter box coupon program? Is there some kind of dialog that 
you're having with them, you know, so they will manufacture 
enough or make certain that they're there, based on the amount 
of coupon requests that you have.
    Is there any kind of discussions? Because, it would seem to 
me that there is a little disconnect.
    Ms. Baker. We're--we're in constant discussions with the 
retailers regarding the coupon program. We have, actually, as 
part our IBM team, we have a retail support center, CLC--
Corporate Lodging Consultants--which provides a range of 
retailer services. They include a toll free number and a Web 
site. And so, there's a variety of tools and useful materials, 
that the retailers can get and we can answer the retailers' 
questions.
    We also are monitoring the retailer performance to make 
sure that their ability to assist customers is at the highest 
level. We just finished a secret shopper exercise, with almost 
600 secret shoppers. And, we revealed that 90 percent of the 
retail staff are very knowledgeable about the coupon program.
    So, we are providing them, again, as much information as we 
can, transparent information about the ZIP Code data that the 
coupons are being requested, so that they can manage their 
inventories.
    And it appears from the redemption rates at this point that 
consumers are finding boxes.
    Mr. Towns. Good. Congresswoman.
    Ms. Clarke. Sure. Ms. Baker, I'm concerned about how we 
monitor the program. I'm sure there are lessons being learned 
in Puerto Rico, as we speak, and then how that transfers to 
other territories, like the Virgin Islands and Guam, States 
like, you know, Alaska and Hawaii.
    You know, I think that there certainly has to be a major 
push or incentive for retailers, suppliers, wholesalers to 
really--I mean, I know it's a supply and-demand issue, but if 
we don't anticipate that there's going to be a rush for these 
boxes, then we are not going to be successful in what we're 
trying to achieve.
    And, if there's a shortage at the end of the day, when that 
rush comes, you know, we're going to be inundated with, you 
know, why didn't we gear up, why didn't we get enough, you 
know, of these converter boxes?
    There has to be a monitoring mechanism, and I understand 
that it sort of works with the ebbs and flows of this process 
until we get to the date. But, I really hope that NTIA is, you 
know, having really great conversations with those who are 
supplying these, whether it's on the back end, where they're 
being manufactured, or on the, you know, front end, where 
they're going to be handed over to the consumer. Because, we're 
asking people to put a lot of confidence in us.
    Sending a coupon that's government backed, you know what 
I'm saying? It says to the consumer, you know, ``We're with you 
and we're helping you with this transition.'' If at the end of 
the day their coupon expires, because they haven't been able to 
find a box, or they're on a waiting list for a box, or 
something of that nature, we're going to get slammed for that. 
You know, we're really going to get slammed for that.
    So, you know, my question to you is, has NTIA worked out 
some sort of working arrangement with the manufacturers, 
wholesalers, retailers in this process, to look at what it 
would take to amp up production to get these here to us, in 
stock, in a timely manner?
    Ms. Baker. We have a constant dialog with the manufacturers 
and the retailers. What we have not found is any systematic, 
long-term, or region-wide shortage of boxes at this time. And 
we have, you know--and we know what's coming in, and we feel 
pretty confident that the--from the--you know, our stream of 
coupons that have been applied for is really constant. It is 
104,000 a day. Sometimes, 105. Sometimes, 103. But it's been a 
very constant application for the coupons received thus far.
    So, we're sharing all of that information. We're sharing it 
geographically with the retailers and the manufacturers. And, I 
encourage all of us to, you know, tell them how important it 
is. I think the retailers understand that. They understand now 
the popularity of the program and have the boxes to supply.
    But, I agree with you that we need to continue to have this 
dialog. It's very important to----
    Ms. Clarke. And, just sort of----
    Ms. Baker [continuing]. Have that be----
    Ms. Clarke [continuing]. Monitor it, be very closely 
monitoring it, you know, the trends, in terms of the coupon 
requests.
    Ms. Desai, you know, I listened to your testimony and it 
looks as though brilliant minds think alike. [Laughter.]
    I want to ask you about how our congressional offices 
actually tie into what you've asked, and what you've already 
started. You know, in a place like New York City, in a District 
like mine. I have such a diversity of communities, extremely 
diverse, many for whom English is not their first language, 
many of whom, you know, may interact outside of their 
communities very infrequently.
    Have you, I guess, sort of looked for liaisons in various--
in all of the ethnic communities? Or is it something that my 
office and Congressman Towns' office, and other congressional 
Representatives should be working with you to identify?
    Ms. Desai. We would be----
    Ms. Clarke. I don't want anyone to be left out of this. I 
can go to Bangladesh, Pakistan, Israel, Jamaica, Haiti, in 1 
day in my District.
    Ms. Desai. And, we would be thrilled to get your help in 
that effort. We have been working with community organizations. 
As you've heard, we've worked with national government 
agencies, as well as State and local governments. But, we would 
be thrilled to get more help and work more closely with your 
office and those of other congressional offices.
    Some of the things that you can do, and that we can help 
you with include distributing publications to constituents. If 
you need publications in additional languages, let us know, and 
we will work with you.
    We've been working to get publications translated into 
different languages. For example, in working with the tribal 
communities, we learned that it would be helpful to have a 
publication in Navajo. So, we got one and translated it to 
Navajo.
    And, you know, as we move forward, we learn new things and 
we try to respond. And so, if there are other languages that 
would be helpful, please let us know, and we'll work with you.
    Ms. Clarke. OK.
    Ms. Desai. So maybe you can--if you know--if you can tell 
us which organizations in your District will help us distribute 
publications, great. We'll send those publications to those 
organizations, and we'll be thrilled if they would distribute 
them.
    If you'd like to hold a town hall meeting, we can certainly 
help you with that. We've done some--like teletalk town hall 
meetings in some Districts, where we've had our staff available 
on the phone to answer questions, and we've had leadership of 
different organizations on the call. We've had just regular 
consumers on those calls, as well.
    We can coordinate briefings, you know, with the caucuses 
that you're involved with. And, if you'd like to link to our 
Web site, I think we encourage--I think pretty much most of the 
congressional offices have a link to our Web site.
    And, you can contact our Office of Legislative Affairs for 
any additional information that you'd like, any publications 
that you'd like.
    Ms. Clarke. Well, in closing, Mr. Chairman, I just want to, 
you know, make sure that it's on the record that this office is 
available to our congressional Members and that we really fully 
need to be informed of the process by which the transition 
takes place, that we have the intelligence on the ground about 
where people would probably have the most difficulty.
    And, I would certainly look forward to working with you. We 
are on recess in August. I think that's a good time to ramp up 
in many of those communities, and I look forward to working 
with you.
    I want to thank you for your testimony, Ms. Baker and Ms. 
Desai. Thank you.
    Ms. Baker. Thank you.
    Ms. Desai. Thank you.
    Mr. Towns. Thank you very much. And, let me just put it 
this way: Why should New Yorkers be excited about this 
transition? I mean, why.
    Ms. Desai. Well, you know, I mean, the digital transition 
brings opportunities for better picture quality, better quality 
sound. It helps the--you know, we're clearing up the airwaves 
so that we can--the spectrum, so that we can get better public 
safety communications, better coordination among the public 
safety services, more advanced wireless services, as well.
    But potentially more programming choices, as well as 
broadcasters have the ability to broadcast multiple programming 
on their screens.
    Mr. Towns. Yes, go ahead.
    Ms. Baker. Well, I do think if anybody that's in the 
audience wants to take a look at it, the digital programming 
speaks for itself. I think, on the analog television, you're 
receiving 2 fuzzy pictures over there, and in the digital I 
think you've got over 10. So, I think the picture speaks for 
itself for consumers, with the clear picture and more 
programming.
    But, it is really important, and when we've done our 
consumer groups, this is inconvenient for people and though 
they might end up with a better television reception, it still 
is going to be a problem, and it's inconvenience.
    But, what Monica said is very important. Twenty-four 
megahertz of the spectrum is going to public safety 
interoperability.
    Mr. Towns. Right.
    Ms. Baker. So then your firefighters are going to be able 
to talk to your policemen in an event. And I think here in New 
York City that resonates, that people are willing to make the 
sacrifice of getting a coupon and getting a converter box if 
it's going to help our public safety interoperability.
    So, it's really going to make our Nation stronger, though, 
as far as competitiveness goes in the next generation of 
advanced wireless services, but really importantly for our 
interoperability.
    Mr. Towns. Right. Let me thank both of you for your 
testimony. But, I would say to you that we still have a long 
way to go, in order to get the word out to people.
    And, of course, I think that we have an obligation and a 
responsibility to do that. Whatever we can do to assist you, in 
terms of getting that out, you know, and I say this, you know, 
that maybe more resources might need to go into the outreach, 
in terms of the education process, to make certain that people 
are really aware of the fact what's going on, you know?
    And, once they know that, a lot of people, I think, will 
cooperate and help you get the word out. But people, the only 
thing they know is the transition, and they're not familiar in 
terms of, you know, how it frees up, in terms of emergency 
numbers and service. I mean, they--once they hear that, you 
know, you'll find that they can help us get the word out. These 
are people who are concerned, committed, heads of 
organizations, heads of agencies could help us, you know, 
spread the word.
    So, I want you to know that whatever we can do to assist 
you in that effort, we stand ready to do it, because it's going 
to be a situation that once it happens, you know, we're going 
to find a lot of people that had no knowledge of it. And, 
that's where we have to work together, to make certain that 
they do have information.
    So, we'll probably be calling you back for town hall 
meetings, you know, to--and basically town hall meetings would 
be to get people that will be able to help us spread the word, 
you know, that might not even need a converter box, but will 
help us to be able to get the word out to people that might 
need a converter box. And, I think that is crucial.
    So, I want to thank my colleague, too, Yvette Clarke, for 
coming today. And of course you, Ms. Baker, for your testimony, 
Ms. Desai, for your testimony. And again, I stand ready to work 
with you.
    On that note, the committee stands adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
